National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001

                                               August 23, 2010


TO:              Dr. Eugene Trinh
                 Director, NASA Management Office, Jet Propulsion Laboratory


FROM:            Paul K. Martin
                 Inspector General


SUBJECT: Final Memorandum on the Office of Inspector General’s Review of the
         Fleet Management Program at the Jet Propulsion Laboratory (Report
         No. IG-10-021; Assignment No. S-10-002-00)


The Office of Inspector General (OIG) conducted a review of the General Services
Administration (GSA) vehicle Fleet Management Program at the Jet Propulsion
Laboratory (JPL). We initiated this review at the request of the NASA Management
Office (NMO) at JPL after an instance of vehicle misuse by a NASA employee. The
initial investigation by the OIG’s Office of Investigations found that the NASA employee
improperly used a Government vehicle for personal business on a continuing basis for at
least 2 years without his supervisor’s knowledge. The investigation called into question
management of the vehicle fleet by the California Institute of Technology (Caltech), 1
which operates JPL for NASA. Subsequently, the OIG Office of Audits conducted this
review to evaluate operation of JPL’s Fleet Management Program and determine whether
adequate internal controls existed to prevent additional misuse by Government or
contractor employees. (See Enclosure 1 for details on the review’s scope and
methodology.)

Executive Summary

We determined that Caltech could strengthen its internal controls in several areas and that
NMO should strengthen its oversight to improve the overall effectiveness of the JPL
Fleet Management Program. Specifically, we found that Caltech fleet management did
not enforce the requirement that all employees submit proper authorization forms
regarding vehicle use, but instead relied on other control mechanisms such as work
orders and project task numbers to track vehicle use. These control mechanisms did not
provide adequate assurance that vehicle usage was adequately tracked, accurately
accounted for, and appropriately supervised. For example, the NASA employee we

1
    Caltech Administrative Operations Group manages the GSA Fleet Vehicle Program at JPL.
                                                                                                          2



investigated drove the GSA vehicle an average of 40,000 miles per year, yet only 5,000
of those miles were for official use. Had the supervisor been required to pre-approve the
rental request or received notification of the vehicle’s use, NASA or Caltech management
might have identified this misuse earlier and the annual cost of over $9,000 to lease the
vehicle from GSA might have been avoided.

As part of this audit, we randomly selected 11 vehicles from the 101 GSA vehicles leased
to Caltech and, based on our review of this sample, did not find other examples of vehicle
misuse. However, we did find internal controls that need to be strengthened. To their
credit, following notification of the incident described above, NMO management
officials revised their procedures to ensure supervisory approval for short- and long-term
use of GSA vehicles, and Caltech fleet management revised work order procedures to
ensure proper accounting of GSA vehicles. However, we believe Caltech’s internal
controls could be further strengthened and in our July 29, 2010, draft of this
memorandum we recommended that the NMO Director direct Caltech fleet management
to require supervisory approval or notification for short-term use and require Caltech
fleet management to immediately notify responsible NASA or Caltech management at
JPL in instances of actual or suspected misuse.

We also found that Caltech’s procedural controls did not include a formal authorization
process for temporary use of vehicles and that Caltech did not have adequate procedures
to consistently evaluate, justify, and account for the use of vehicles assigned on a long-
term or permanent basis. In addition, we found that the mileage usage rates for
approximately 78 percent of the Caltech GSA vehicle fleet were less than the minimum
rate specified in GSA guidelines, indicating that Caltech had more vehicles than it needed
and that NASA was paying for more vehicles than Agency work required. 2

Our review also revealed opportunities for the NMO to improve its oversight of the JPL
Fleet Management Program and guidance it provides to Caltech fleet management. For
example, none of NASA’s fleet vehicle program requirements are incorporated in the
prime contract between NASA and Caltech. This lack of contractual requirements limits
the authority of NMO personnel in providing adequate program oversight. In the draft of
this memorandum, we recommended that NASA modify the JPL prime contract to
include the NASA Policy Directives and Procedural Requirements relating to fleet
management. We further recommended that NMO conduct annual reviews to ensure that
Caltech is effectively managing the Fleet Management Program in accordance with
NASA’s policies.

Management’s response to the draft of this memorandum is responsive to our findings
and our three recommendations (see Enclosure 2). The recommendations are resolved,
and we will close them upon completion and verification of management’s corrective
action.


2
    In fiscal year (FY) 2009, NASA paid approximately $890,000 for GSA vehicle fleet operations at JPL.
                                                                                        3



Background

JPL is a NASA federally funded research and development center operated under
contract by Caltech, a private nonprofit educational institution in Pasadena, California.
The primary mission of JPL is to conduct Earth science and deep space and
interplanetary exploration. JPL has a workforce of about 5,000 employees and an annual
budget of approximately $2 billion.

The prime contract between NASA and Caltech includes Federal Acquisition Regulation
Clause 52.251-2, which authorizes Caltech to obtain GSA vehicles and related services
for use in the performance of its contract. Caltech obtains Government-owned vehicles
through a subcontract with GSA and leases the vehicles from GSA. The monthly leasing
and mileage rate includes fuel, routine maintenance, and repair. GSA requires agencies
to report monthly odometer readings for each rented vehicle. GSA Fleet management
then uses the odometer readings as the basis for customer billing.

Caltech’s Administrative Operations Group manages 101 GSA-leased vehicles. At the
time of our review, 70 vehicles were permanently assigned to JPL organizations as long-
term assignments and 31 vehicles were kept in the motor pool for short-term rental
assignment. For FY 2009, the GSA fleet operation costs were approximately $890,000,
which included approximately $500,000 in GSA leasing costs and $390,000 in indirect
(administrative) and maintenance costs. NASA ultimately pays for the lease of GSA
vehicles through direct charges to JPL projects and indirect charges submitted for
institutional use.

The Government Accountability Office, “Standards for Internal Control in the Federal
Government,” November 1999, states that access to resources should be limited to
authorized individuals, and accountability for their custody and use should be assigned
and maintained. In addition, monitoring should be done by periodically comparing
resources against records accounting for the resources’ whereabouts to minimize risk and
identify errors, fraud, and misuse.

Caltech Could Improve Internal Controls for Temporary Vehicle Use

We found that Caltech fleet management did not follow Caltech’s internal procedures
that require the submission of an Interoffice Memorandum to secure a vehicle. The
Interoffice Memorandum is intended to serve as a permanent record documenting the
purpose of the overnight or multiple-day use, the responsible party’s name and telephone
number, the driver’s name and telephone number, and the onsite parking location for the
vehicle. NASA staff members were allowed to use vehicles without submitting the
Interoffice Memorandum because Caltech fleet management relied on other internal
control measures intended to prevent and identify misuse. Specifically, Caltech fleet
management required users to provide a project task number so that operating costs for
the vehicle in question could be charged back to the requestor’s project task number and,
at the end of each month, the project supervisors would receive monthly billing
                                                                                                                4



statements and thereby be made aware of the costs and use of Government vehicles by
their employees. However, we found that this “charge back” procedure was not effective
because Caltech fleet management allowed the motor pool dispatcher to assign vehicles
without charging the use to a specific project. Caltech fleet management stated that the
purpose of the “no-charge” work order was to avoid “double charging” a project for
using a loaner vehicle when a long-term assigned vehicle was returned for maintenance
or repair. In addition, Caltech fleet management applied “no charge” work orders to
NASA employees and failed to require prior supervisor approval or notification when
assigning motor pool vehicles for one-day or multiple-day use.

The consequence of this circumvention of internal controls was that supervisors of
NASA civil service employees were not always aware when their employees were issued
GSA vehicles. As a result, the NASA employee we investigated was able to use GSA-
leased vehicles inappropriately for 2 years at an annual cost to NASA of over $9,000.
The employee drove the GSA vehicles an average of 40,000 miles per year, yet only
about 5,000 miles were documented as being for official use.

To their credit, after they became aware of this issue NMO management officials revised
their procedures to ensure supervisory approval for short- and long-term use of GSA
vehicles and Caltech fleet management revised work order procedures by eliminating the
practice of applying “no-charge” work orders for NASA employees. Nevertheless, we
believe that Caltech fleet management could further strengthen its internal controls by
requiring supervisory approval or notification for short-term use and requiring immediate
notification to responsible NASA or Caltech management at JPL in instances of actual or
suspected misuse.

Caltech Could Improve Accountability and Justification for the Use of Vehicles
 Assigned on a Permanent Basis

We found that Caltech fleet management did not have procedures in place to consistently
evaluate, justify, and account for the use of vehicles assigned on a long-term or
permanent basis. GSA Fleet Management Guidelines require that a Federal fleet
manager ensure that agencies have established procedures that will monitor and control
the use of GSA vehicles at all times. The fleet manager must maintain assignment and
dispatch records to ensure necessary control and provide data for utilization reviews. In
addition, the NASA Fleet Management Handbook requires that each Center ensure
sufficient data is collected and maintained to monitor fleet usage.

We found that when assessed by GSA minimum use guidelines and utilization
standards, 3 Caltech’s GSA vehicles were generally underutilized in FY 2009. GSA’s

3
    Title 41, Code of Federal Regulations, Subpart 101-39.301 requires that an agency be able to justify a
    full-time vehicle assignment and provides the following mileage guidelines: from 7,500 miles per year
    for trucks to 12,000 miles per year for passenger cars. The Regulations also note that other utilization
    factors, such as days used, agency mission, and the relative costs of alternatives to a full-time vehicle
    assignment, may be considered as justification where miles traveled guidelines are not met.
                                                                                             5



minimum utilization guideline is 7,500 to 12,000 miles per year. Our analysis revealed
that the overall usage for approximately 78 percent of the GSA vehicles was less than the
GSA minimum utilization guidelines by 41 percent on average. In addition, the usage
rate for permanently assigned vehicles such as light trucks and sedans was 70 percent
lower than the utilization guideline. Table 1 shows vehicle fleet usage by vehicle
category.

                 Table 1. FY 2009 GSA Vehicle Usage, by Category,
                           at the Jet Propulsion Laboratory
                            Permanent              Short-Term
                            Assignment               Rental
                      Number                  Number              GSA Annual
                         of        Average       of       Average  Utilization
        Vehicle       Vehicle      Annual      Vehicle    Annual   Guideline
        Category          s        Mileage        s       Mileage   (miles)
     Ambulance           2         1,597                            7,500
     Heavy Truck         3         2,847                            7,500
     Bus                 5        12,636         3         5,856    7,500
     Medium Truck       13         5,079         2       15,496     7,500
     Light Truck        36         2,986        15         6,302   10,000
     Sedan              11         3,456        11       13,444    12,000
        Total           70         4,092        31         9,386


Caltech fleet management had established 100 miles per month (1,200 miles per year)
as the minimum utilization guideline Caltech would follow, which is 10 percent to
16 percent of GSA’s guideline, depending on vehicle category. Furthermore, fleet
management did not establish procedures to monitor the use of permanently assigned
vehicles and did not establish utilization criteria such as trips per day, passengers per trip,
and cargo per trip that would be critical to justify keeping vehicles with utilization rates
less than the GSA mileage criteria. For example, our review of 8 vehicles sampled from
the 70 permanently assigned vehicles revealed that 5 did not record travel utilization data
at all. Without complete vehicle utilization data, fleet management had no basis to
support the need for long-term vehicle assignments.

In addition, we found that approvals for permanently assigned vehicles were not handled
in a timely manner. Caltech fleet management uses a Triennial Vehicle Justification
Form to justify permanently assigning vehicles. Caltech policy states that the employee’s
supervisor and JPL Transportation Committee Management are required to approve this
form in advance of obtaining the car. However, for the eight vehicles we reviewed, one
vehicle did not have documented approval and the other approvals occurred 3 to 7
months after fleet management assigned the vehicle. In addition, based on our interviews
of long-term vehicle assignees, JPL’s Transportation Committee has never turned down a
request for long-term vehicle assignment.
                                                                                          6



Ineffective controls increase the risk of vehicle misuse. Without complete and accurate
information about the mileage driven and the frequency of vehicle use, fleet managers
cannot adequately assess vehicle utilization. Monitoring utilization can help identify
potential misuse and improve the accountability of vehicle usage. Accordingly, Caltech
fleet management should implement controls for evaluating, justifying, and accounting
for vehicles assigned on a long-term or permanent basis.

NMO Should Incorporate NASA Fleet Vehicle Management Requirements in
 the Prime Contract

We found that NASA did not incorporate NASA Policy Directive (NPD) 6000.1C,
“Transportation Management,” October 8, 2009; NASA Procedural Requirements (NPR)
6200.1C, “NASA Transportation and General Traffic Management,” October 8, 2008; or
the “NASA Official Fleet Management Handbook,” August 1, 2005, into the JPL prime
contract.

NPD 6000.1C requires NASA Center Directors to establish processes and procedures to
monitor and control the use of transportation vehicles. NPR 6200.1C requires Center
Transportation Officers/Transportation Managers to complete an annual vehicle review,
in conjunction with their contractors, to validate the type and quantity of Government-
owned and contractor-operated vehicles required to ensure vehicle resources are properly
used.

The NASA Official Fleet Management Handbook provides policies and procedures to
guide NASA fleet managers. Because these policies and procedures are not referenced in
the JPL prime contract, Caltech is under no legal obligation to comply with them.
Consequently, the NMO has less leverage to enforce these policies.

The NMO should incorporate NASA’s fleet management policies, procedures, and
Handbook into the prime contract to ensure that Caltech fleet management follows these
rules to help perform effective fleet management.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response

Recommendation 1. We recommended that the NMO Director direct Caltech fleet
management to implement a formal authorization process for temporary use of vehicles
and to immediately contact site management when there is evidence of actual or
suspected misuse.

   Management’s Response. The NMO Director concurred, stating that he will verify
   that JPL Fleet Management (Caltech fleet management) has revised work order
   procedures, captured and reviewed vehicle assignment and usage, and provided
   quarterly vehicle usage information to immediate supervisors of vehicle assignees. In
   addition, JPL Fleet Management will contact site management whenever there is
                                                                                           7



   evidence of actual or suspected misuse. Management expects to complete the
   proposed actions by October 1, 2010.

   Evaluation of Management’s Response. Management’s planned actions are
   responsive. The recommendation is resolved and will be closed after we verify
   completion of the corrective actions.

Recommendation 2. We recommended that the NMO Director ensure that Caltech fleet
management establishes procedures to evaluate, justify, and account for long-term and
permanent vehicle assignments and utilization.

   Management’s Response. The NMO Director concurred, stating that JPL Fleet
   Management will update its internal procedures document to reflect the procedural
   changes noted in Recommendation 1 and implement an annual vehicle justification
   review process. Management expects to implement the proposed actions by October
   1, 2010.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed after we verify
   completion of the corrective action.

Recommendation 3. We recommended that the NMO Director modify the JPL prime
contract to include NASA Policy Directives, NASA Procedural Requirements, and other
applicable fleet management procedures and conduct annual reviews to ensure Caltech is
effectively using GSA vehicles.

   Management’s Response. The NMO Director partially concurred, stating that
   incorporating requirements of the policy directives into the current contract with
   Caltech (which expires on March 30, 2012) may not be cost effective. The Director
   stated that he will evaluate the impact of changes brought about as the result of our
   review and decide whether to include the relevant documents in any follow-on
   contract. He also stated that he will include Agency-owned vehicles in the annual
   vehicle utilization reviews.

   Evaluation of Management’s Response. Management’s planned action is
   responsive and the recommendation is resolved. We expect to review the results of
   the Director’s evaluation concerning incorporation of fleet management policy
   documents into a new JPL contract prior to March 30, 2012. The recommendation
   will remain open until that time.

We appreciate the courtesies extended during our review. If you have any questions or
need additional information, please contact Raymond Tolomeo, Science and Aeronautics
Research Director, Office of Audits, at (202) 358-7227.


2 Enclosures
                              Scope and Methodology
We performed this review from February 2010 through July 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform our work to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on the objectives. We believe that the
evidence obtained during this review provides a reasonable basis for our findings and
conclusions based on our objectives.

We reviewed applicable sections of the Code of Federal Regulations, GSA fleet
management guidance to identify criteria applicable to the management of leased
vehicles, and NASA guidance pertaining to vehicle use. We interviewed vehicle users,
fleet managers, and the Agency fleet manager.

We obtained vehicle data generated from the GSA Interagency Fleet Management
System Detailed Billing Register as of September 30, 2009. We assessed GSA billing
data to determine if vehicles were underutilized, and compared total miles each vehicle
was driven during FY 2009 with Federal minimum mileage standards. We excluded 2
ambulances and 8 buses, considered as having a low probability of misuse, from the 101
vehicle population and randomly selected 11 vehicles (8 permanently assigned and 3
motor pool vehicles) out of 91 vehicles using WinSTAT, the statistics Add-In for
Microsoft Excel. We then reviewed the transaction data and supporting documents for
the selected sample vehicles to determine whether JPL had adequate internal controls in
place to prevent misuse and/or abuse of GSA vehicles.

Computer-Processed Data

We used computer-processed data to perform this audit. The JPL’s usage transactions
were entered into JPL Fleet Management Systems and we traced the transaction data to
the original trips reports and compared the information in the key data fields. We believe
the data to be reliable based on our tracking and comparison.

Review of Internal Controls

We reviewed and evaluated the internal controls associated with JPL’s GSA fleet
management process. We also reviewed NASA Policy Directives and NASA Procedural
Requirements. We found that JPL could strengthen the effectiveness and control over
management of GSA fleets.

Prior Coverage

During the last 5 years, neither the NASA Office of Inspector General nor the
Government Accountability Office has issued a report related to the subject of this
memorandum.

                                                                              Enclosure 1
                                                                              Page 1 of 1
Management’s Comments




                        Enclosure 2
                        Page 1 of 3
Enclosure 2
Page 2 of 3
Enclosure 2
Page 3 of 3
